a

iPOCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cockl el egalbriefs. com

vlrfX^Legal Briefs
Est. 1923

1-800-225-6964
(402)342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-31
CAROL M. KAM, PRO SE,
Petitioner,
v.
DALLAS COUNTY AND STATE OF TEXAS,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR
REHEARING in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 2044 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 29th day of October, 2019.
I am duly authorized under the laws of the State of Nebraska to administer oaths.
PATRICIA BILLOTTE
General Notary
State of Nebraska
My Commission Expires Nov 24, 2020

1

>
>

» Notary Public

Affiant

38847

